HHS/OIG - Audit,"Audit of The General Clinical Research Center at Beth Israel Deaconess Medical Center for Fiscal Year Ending November 1999,"(A-01-01-01500)
Department of Health and Human Services
Audit of the General Clinical Research Center at Beth Israel Deaconess Medical Center for Fiscal Year Ending November
30, 1999," (A-01-01-01500)
October 30, 2001
Complete
Text of Report is available in PDF format (844 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Beth Israel Deaconess Medical Center had adequate internal controls
to ensure its General Clinical Research Center was utilized in accordance with NIH guidelines and the activity was accurately
reported. The BIDMC needs to improve its system of controls to ensure the GCRC is utilized in accordance with NIH guidelines.
During grant year 1999, the GCRC did not have a sufficient level of research utilization and credit days to justify being
funded as a discrete unit. In this respect, the BIDMC GCRC inpatient space was utilized only 40.6% for research while the
outpatient space was utilized only 37.2% for research. This occurred because the BIDMC did not ensure that estimated patient
activity levels were achieved and that grant costs were offset by service credits. Therefore, the GCRC was not operated
in the most cost effective manner. It was determined that the GCRC would have been funded approximately $232,131 less in
FY 1999, and $972,663 less in FY 2001, if the inpatient unit had been funded on a per diem basis, rather than the discrete
method.